No. 20-637
IN THE

DARRELL HEMPHILL,

Petitioner,

v.
STATE OF NEW YORK,
Respondent.
On Writ of Certiorari to the Court
of Appeals of New York
MOTION FOR LEAVE TO FILE BRIEF AS
AMICUS CURIAE AND AMICUS
BRIEF OF ADAM OUSTATCHER
IN SUPPORT OF RESPONDENT
CERTIFICATE OF COMPLIANCE

Pursuant to Supreme Court Rule 33.1(h), I certify that the
accompanying Motion for Leave to File Brief as Amicus Curiae contains 394
words, excluding the parts of the document that are exempted by Supreme
Court Rule 33.1(d), and the Brief of Adam Oustatcher as Amicus Curiae in
Support of Respondent contains 7,985 words, excluding the parts of the
document that are exempted by Supreme Court Rule 33.1(d). This Certificate
of Compliance was prepared in reliance on the Microsoft Word word-count
function used to prepare this document.
I declare that the above is true and correct under penalty of perjury.
DATED this 16th day of August 2021

_______________________________
Adam Oustatcher, Esq.
55 Broadway
Suite 202
New York, New York 10006
(917) 881-9307
aoustatcher@gmail.com

